APPENDIX A

USCA Case #18-3074

Document #1824303

Filed: 01/15/2020

Page 1 of 1

ffinitzb JSiaies (JInurt of Jkppsals
For The District of Columbia Circuit

No. 18-3074

September Term, 2019
1:08-cr-00334-RCL-1
Filed On: January 15, 2020

United States of America,
Appellee
v.
Charles E. Coughlin,
••

Appellant

BEFORE:

Henderson, Srinivasan, and Katsas, Circuit Judges
ORDER

Upon consideration of the motion to dismiss and the opposition thereto, which
contains a motion for a certificate of appealability (“COA)”, it is
ORDERED that the motion for a COA be denied and the motion to dismiss be
granted. Because appellant has not made “a substantial showing of the denial of a
constitutional right,” 28 U.S.C. § 2253(c)(2), no COA is warranted. See Slack v.
McDaniel. 529 U.S. 473, 483-84 (2000).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. Because
no COA has been allowed, no mandate will issue.
Per Curiam

Case l:08-cr-00334-RCL Document 267 Filed 08/28/19 Page 1 of 2
APPENDIX B

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

UNITED STATES OF AMERICA
Vi

CHARLES E. COUGHLIN,
Defendant.

)
)
)
)
)
)
)

Criminal Case No. 08-334 (1)

ORDER
After the Court denied Charles Coughlin’s ineffective assistance of counsel claim under
28 U.S.C. § 2255, see ECF No. 257, he sought appellate review. See ECF No. 258. But because
§ 2253 requires he first seek a certificate of appealability, the Court of Appeals directed this
Court to “determin[e] whether a certificate of appealability is warranted.” See ECF No. 261
(citing Mitchell v. Reno, 216 F.3d 1126 (D.C. Cir. 2000)).
To justify a certificate of appealability, Coughlin “must demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or
>r

wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Because he does not, the Court concludes
no certificate shall issue.
Coughlin—a decorated Naval Officer and Harvard Business School graduate, who
worked in the Pentagon on September 11th—defrauded the September 11th Victim
Compensation by grossly exaggerating his injuries. Though he claimed a severe and permanent
disability justifying an award exceeding $331,000, Coughlin ran the New York marathon a few
weeks after the attack and Used the money to buy a new house. The grand jury charged him with
five counts of mail fraud; one count of filing a false claim; and one count of stealing government
property. After a trial in which Coughlin called medical experts to rebut the government’s case,

Case l:08-cr-00334-RCL Document 267 Filed 08/28/19 Page 2 of 2

the jury acquitted Coughlin of some counts and hung on others. When the government retried the
hung charges, Coughlin’s legal team decided not to recall the medical experts, since jurors from
the prior trial found their testimony excessive and distracting. Ultimately, that gamble failed: the
new jury convicted Coughlin of Filing a false claim and stealing government property. And now,
Coughlin claims his counsel’s strategic misjudgment amounted to constitutionally deficient
representation.
But in forgoing the medical experts’ testimony, Coughlin’s lawyers reasonably (if
wrongly) trusted their “professional judgment,” Jones v. Barnes, 463 U.S. 754, 751 (1983); their
conduct did not “f[a]ll below an objective standard of reasonableness.” Strickland v. Washington,
466 U.S. 668, 687 (1984). Moreover, Coughlin identifies no circuit in which his claim would
prevail. Given the lack of circuit conflict, no certificate is warranted.
Accordingly, the Court DENIES Coughlin’s motion [263] for a certificate of
appealability. The Court directs the clerk to transmit this Order to the Court of Appeals.

August

2019

4-0
Rbyce C. Lamberth
United States District Judge

2

USCA Case #18-3074

Document #1839089

Filed: 04/21/2020

Page 1 of 1

APPENDIX C

i

ffinxttb JStatee Court of ^Appeals
For The District of Columbia Circuit

No. 18-3074

September Term, 2019
1:08-cr-00334-RCL-1
Filed On: April 21, 2020

United States of America,
Appellee
v.
Charles E. Coughlin,
Appellant

BEFORE:

Srinivasan, Chief Judge, and Henderson and Katsas, Circuit
Judges
ORDER

Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Daniel J. Reidy
Deputy Clerk

USCA Case #18-3074

Document #1839090

Filed: 04/21/2020

Page 1 of 1

APPENDIX D

l

ptmtefr JStates OInurt of appeals
For The District of Columbia Circuit

No. 18-3074

September Term, 2019
1:08-cr-00334-RCL-1
Filed On: April 21, 2020

United States of America,
Appellee
v.
Charles E. Coughlin,
Appellant

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

7s/
Daniel J. Reidy
Deputy Clerk

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 1 of 7
r

APPENDIX E
i

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

UNITED STATES OF AMERICA
*
*

v.

Crim. No. 08-CR-334 (RCL)

*

I

*

CHARLES E. COUGHLIN,

>F

*
*

Defendant
*

*

*

*

*

*

*

*

*

*

*
>;

DECLARATION OF TOHN A. BOURGEOIS
1.

My name is John A. Bourgeois. I am over 18 years of age, have

persona] knowledge of the contents hereof, and am otherwise competent to
testify.
:

2.

I initially declined to discuss with the government's counsel my

representation of Charles E. Coughlin in the above-captioned matter in light of
Mr. Coughlin's attorney-client privilege, the attorney work-product doctrine,
>.

and my obligations under Rule 1.6 of the D.C. Rules of Professional Conduct. I

S
i.

give this declaration under tire authority of this Court's Order dated December
14, 2015 (ECF No. 214) which, among other things, waived Mr. Coughlin's
i

attorney-client privilege and authorized my disclosures herein under Rule
1.6(e)(3) of the D.C. Rules of Professional Conduct, and the Court's subsequent

07378/0/02419583.DOCXV I

r GOVERNMENT I
11 EXHIBIT ’ I

LU

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 2 of 7

Order dated July 6, 2017 (ECF No. 237) which directed me to make this
declaration.
3.

i

I earned my undergraduate degree from the University of Maryland

in 1987 and my Juris Doctor degree from Georgetown University in 1993. I was
admitted to the practice of law in Maryland in 1993 and the District of Columbia
in 2004. I currently am a principal in the firm of Kramon and Graham, P.A.,
located in Baltimore, Maryland, where my practice is focused on complex civil
and criminal litigation. 1 have been employed by Kramon and Graham, P.A.,
since 1996.

Since my admission to the bar, I have been lead counsel in

approximately 75 trials, approximately 20 of which were tried to a jury.
-4.

Charles E. Coughlin retained the services of Kramon and Graham,

P.A. in June 2007 in connection with a then-pending investigation which resulted
in his being indicted on charges of mail fraud, false claims, and theft of public
funds. I entered my appearance on his behalf on November 6, 2008 and
represented Mr. Coughlin throughout his three ensuing jury trials and two
appeals.
5

In Mr. Coughlin's first -trial; we presented expert medical testimony

from Drs. Spiro Antoniades, Akhil Khanna, and Thom Mayer. Drs. Antoniades
and Khanna opined that Mr. Coughlin, while serving in the Pentagon on
September 11, 2001, incurred a partial permanent disability. Dr. Mayer opined

07378/0/02-119583. DOCXvl

2

;

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 3 of 7
i

that, in his experience, athletes have a higher pain threshold and can "play
through pain," and that, despite being injured, Mr. Coughlin could still engage
in certain athletic activities and other physical pursuits. Ultimately, the jury
acquitted Mr. Coughlin of three of the five mail fraud counts. Thereafter, the

i

Court declared a mistrial as to the remaining four counts (two counts of mail

l

f

?

fraud, one count of theft of public funds, and one false claim count).
6.

i

In view of the prospect of a retrial on the unresolved counts, my co-

counsel, opposing counsel, and 1 interviewed the jurors from the first trial to gain
an understanding of what was effective and what was not in terms of the
presentation of evidence. The jurors interviewed were consistent in their
criticism of the volume of medical evidence presented, opining that such
evidence was distracting and wholly unnecessary because the crux of the case
!

centered on the checks submitted by Mr. Coughlin in support of his claimed
economic damages. The jurors expressed that they were not impressed -- or
persuaded - by either side's medical expert testimony.
As expected, the government then moved to retry Mr. Coughlin on

I

the unresolved charges. I argued that any retrial would be unconstitutional as a

A

7.

violation of the Constitution's prohibition against Double Jeopardy. Judge
Kennedy disagreed. We immediately appealed Judge Kennedy's decision to the
D.C. Circuit and moved to stay the case during the pendency of the appeal.

07378/0/0241:9583,DOCXv)

3

]

i

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 4 of 7

While awaiting the D.C. Circuit's decision/ Mr. Coughlin's second trial-,
commenced. The government completed the presentation of its case, and we
presented the testimony of Ryan Coughlin before the D.C. Circuit stayed the case
pending expedited briefing and argument on the merits of the appeal.
8.

On June 29,2010, the D.C. Circuit issued its opinion, holding that the

Double Jeopardy Clause barred retrial on the remaining mail fraud counts but
not the false claim and theft counts. As a result of that decision, Judge Kennedy
declared a mistrial.
9.

The case then proceeded to a third trial before the Honorable Royce

C. Lamberth. The jury convicted Mr. Coughlin in this third trial. On December
12, 2011, Judge Lamberth sentenced Mr. Coughlin, among other things, to 44
months' confinement.
10.

On December 16, 2014, Mr. Coughlin's post-conviction attorney filed

a 28 U.S.C. § 2255 motion alleging ineffective assistance of counsel. Mr. Coughlin
then discharged his attorney and filed various pro se supplements to this motion.
The government advised me of Mr. Coughlin's motion and supplements as well
as the subsequent Court orders waiving the attorney-client privilege and limiting
my response to the issue of my alleged ineffectiveness for failing to present
expert medical testimony at Mr. Coughlin's third trial.

07378/O/O2‘U9583;DOCXvl

4

i

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 5 of 7

ri

By the time of Mr. Coughlin's third trial, the defense team was quite

familiar with the testimony of the government's medical experts, having heard
and cross-examined them twice. We were concerned that the medical issues
were becoming a "side-show" and that we would run the risk of having the jury
give unwarranted credence to the medical issues if we were to highlight them by
presenting our own expert witnesses. We also were concerned about the
inherent contradiction between having doctors testify that Mr. Coughlin's
injuries did not impair his ability to engage in athletic pursuits while Mr.
Coughlin was, at the same time, contending that he could not perform basic
household chores. We discussed these concerns with Mr. Coughlin on multiple
occasions.
12.

My colleague Amy Askew, who was co-counsel for the trial, was

(and is) a very experienced medical malpractice attorney. She and I believed that
the better tactical course would be to elicit helpful testimony from the cross!

examination of the government's medical expert witnesses, rather than calling
our own medical experts. Hence, we advised Mr, Coughlin, both before and
during his third trial, that our judgment was not to present expert medical
witnesses for the defense. We also advised Mr. Coughlin that we would revisit
this issue if, after the government's experts testified and were cross-examined,

07378/ 0/02419583. POCX vl

5

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 6 of 7

our \dew changed. Indeed, Dr. Mayer was prepared to fly to D.C. from Colorado
to testify on August 22 or 24, 2011.
13.

The examination — both direct and cross -- of the government's

medical expert witnesses went as expected and provided favorable testimony for
the defense. Our recommendation did not change. After discussing the matter
with Mr. Coughlin over the weekend of August 20 and 2l, 2011, Mr. Coughlin
agreed with our assessment and we chose not to call Dr. Mayer or any other
doctors
14.

Mr. Coughlin's financial state at the time of his third trial did not

drive our tactical decision to proceed to trial without die presentation of defense
medical experts. Indeed/Mr, Coughlin preferred Dr. Mayer among potential
medical experts and Dr. Mayer had agreed to testify without compensation if we
decided to call him. Although we were aware that Drs. Antoniades and Khanna
would charge for then time if we elected to call them again, and that Mr.
Coughlin had very limited funds, we knew that applying for funds through the
Criminal Justice Act might be an option. (Indeed, we had sought and obtained
appointment under the Criminal Justice Act for Mr. Coughlin's appeals.) We did
not explore that option, or ask Mr. Coughlin to secure funding on his own,
because our judgment - which we discussed with Mr. Coughlin - was that
presenting defense medical experts was not in Mr. Coughlin's best interests. In

(17178/0/02419583. DOCXvl

6

Case l:08-cr-00334-RCL Document 241-1 Filed 07/21/17 Page 7 oJl

our view, as noted above and as discussed with Mr, Coughlin, Mr. Coughlin's
medical and physical condition had little to do with the core issue in the case -the checks that Mr. Coughlin submitted to the Victims Compensation Fund in
support of his claimed economic loss.
15.

Steven Klepper, my colleague who represented Mr. Coughlin for the

various appeals, did not represent Mr. Coughlin during the trials and played no
role in the advice or the decision not to call expert medical witnesses during Mr.
Coughlin's third trial.

1 declare under the penalty of perjury that the foregoing is true and correct.
Executed on July 10, 2017.

__ -

in A. Bourgeois

07S78/0/024195fO. DOCXvl

7

APPENDIX F

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
UNITED STATES OF AMERICA
v.
CHARLES E. COUGHLIN,
Defendant

)
)
)
)
)
)
)

Crim. No. l:08-CR-0034 (RCL)

DECLARATION OF CHARLES E. COUGH I IN
1. My name is Charles E: Coughlin. I am over 18 years of age, have personal
knowledge of the contents hereof, and am otherwise competent to testify.
2.1 currently reside at 340 Saint Bees Drive, Severna Park, MD 21146
3. I provide this declaration under the authority of this Court’s Order dated
December 14, 2015 [214] which granted a limited waiver of Defendant’s attorney-client
privilege to address Defendant’s claims of ineffective assistance of counsel (trial and
appellate) in his amended motion under 28 U.S.C. section 2255.
4. The purpose of this declaration is to convey that the decision to not call expert
medical witnesses in Trial 3 was neither a strategic nor tactical decision, but rather,
ultimately a conflict of schedules and failure to seek CJA funds in response to Defendant’s
well-known lack of funds.
5. In Trial 1 the defense presented expert medical testimony from Drs. Spiro
Antoniades, Akhil Khanna, and Thom Mayer. All three doctors concurred with Dr. Smith’s
Independent Medical Evaluation (IME) findings, submitted to the VCF, including the
Defendant sustaining a permanent cervical injury resulting in increased symptoms and that

1

04. e*. \

“[Coughlin] is a candidate for future surgical [cervical] decompression.” They all
concurred that treatment options included surgery : w
ere undeterred by Coughlin’s having
participated in athletic activities given level of play, quality of play, frequency ofplay,

and
other factors are most relevant; that comparing Coughlin’s perfoimance between the 2000
Boston Marathon and the 2001 NYC Marath

on validated their opinion; and agreed that

athletes have a high pain tolerance. Drs. Khanna and Mayer discussed the vari
patients stop seelting physical therapy. Dr Mayer, a sports medicine doctor,
that Coughlin’s athletic performance indicated he suffered

ous reasons

opined further

an injury on 9/11 that directly

affected h.s post-9/11 athletic performance; that Coughlin’s medical records were the
“standard” type format and not conducive for evaluating changes in an athlete’s
performance - specifically, the level of play, quality of play, changes in play and ability,
etc. - that would better indicate the degree of injury and symptoms experienced by the
individual; that Coughlin s marathon and lacrosse performance pre- and post-9/11 clearly
indicated a significant event on 9/11, and that Coughlin’s hip and shoulder injuries
were
clearly not a factor in his post-9/11 athletic performance. Ultimately, the jury acquitted
Commander Coughlin of three of the five mail fraud charges.
6. In view of the prospect of a retrial on the hung counts, my attorneys and the
Government interviewed the jurors from the first trial to gain an understanding of what was
effective and what was not in terms of the presentation of evidence. Referring solely to
defense medical experts Drs. Khanna and Antoniades, my attorney, John Bourgeois, stated
in an email that only several jurors found the two doctors “helpful but not credible.” He
then speculated that in his opinion those jurors found “the doctors’ testimony to be helpful
in their understanding of the mechanics of the spine and neck and the injuries thereto, but

2

Ejt, \

that they discounted Antoniades’ and Khanna’s opinions being bought and paid for.” (Def.
Ex. 2) Drs. Antoniades and Khanna were first-time expert witnesses who made critical
mistakes on cross examination. Both doctors admitted their notes and timelines
errors and omitted several pertinent medical reports that would have factored

contained
into their

opimons. Dr. Khanna admitted that on the original day he was to testify (and didn’t due to
a change in trial schedule) - an additional day that Defendant still paid him $5000 - he
spent that time conducting academic work such as responding to emails, working on his
book and other personal activities instead of reviewing Coughlin’s medical records and
preparing for trial. Dr. Mayer’s testimony was never referenced by the j urors.
7. As expected, the government retried Coughlin on the unresolved charges. In Trial
2, the Government placed even more emphasis on the medical and athletic activity
evidence increasing its case-in-chief testimony in these areas from 44% of its direct
testimony in Tnal 1 to 57% in Trial 2. The Government increased the number of medical
witnesses from 5 to 7, increased the number of expert medical witnesses from 2 to 3 (adding
a sports medicine expert witness), and increased the number of its athletic activity
witnesses from 3 to 4. Notably, the defense was prepared to have all three expert medical
witnesses testify again in Trial 2 commencing three weeks later after discussing their Trial
1 miscues. (See Def. Ex. 2-7)
8. In preparation for Trial 3 , once Judge Lamberth’s Memorandum Opinion was
published indicating medical and athletic activity evidence would be admitted, the defense
initiated an overt Trial 3 strategy to “prepare for trial 1 again.” (See Def. Ex. 10) The focus
was to use Coughlin’s treating physicians and physical therapists from 2006 through 2011;
including as experts. (See Def. Ex. 8, 8a, 9, 10, 13)

. C*. \

9. The Government clearly stated on multiple occasions its intentions to use the
evidence and the argument it would make i
in Trial 3 to demonstrate that Coughlin
exaggerated the severity of his 9/llinjury; that he would not need to

travel to obtain

treatment as he claimed; that Coughlin lied when he stated he would ultimately require
surgery; that Coughlin lied when he stated his doctors told him he would absolutely

require

surgery; Coughlin misrepresented his 1998 symptoms having gone away entirely and he
had additional flare- ups prior to 9/11, including a motor vehicle accident
never disclosed to the VCF; that he exaggerated his

in 2000,that he

symptoms; that Coughlin didn't

disclose other ailments that were m ore debilitating than his neck injury; and that Coughlin
lied about his ability to perform household chores. (2nd Appeal and Addendum

, Def. Ex.

11,21,26, 27).
10. The defense strategy was to use medical experts and treating physicians to
counter the above stated government arguments and to include the limitations of the
standard medical record format; focus on specific motions and types of activities that
aggravated defendant’s symptoms; describe how level of activity and quality of play is
indicative of underlying pathology; that performance in athletic activities prior to and after
an event is important in identifying the triggering event and degree of symptoms; provide
opinions on the relevance of Defendant’s various medical record entries, whether future
surgery was a potential prognosis, where he would be able to obtain physical therapy,
symptomology, etc. (Def. Ex. 10, 11, 12) Defense counsel notified Government that Drs.
Mayer, Khana and Antoniades would be offered as defense expert medical witnesses and
the scope of their Trial 3 testimony to refute the Government’

s arguments. (Def. Ex. 20,

25, 27)

4

Qe^r,

I

11. Defense counsel’s cross-examination of Government expert medical witnesses
did not entail the depth and breathe of questioning outlined above - or as with defense Trial
1 expert medical witnesses — as the concern was that Government witnesses might not
respond as expected; essentially “don’t ask the question if you don’t know for sure what
the answer will be.” The intention was to use defense expert medical witnesses to elicit this
testimony. Having not elicited this testimony from the Government’s expert medical
witnesses, the importance of defense expert medical witnesses was increased.
12. At no time did defense counsel inform Coughlin that their judgment was to not
present expert medical witnesses. From the conclusion of Trial 1 to just before the defense
rested its case in Trial 3, the expectation - as well as actions taken - was the defense would
call expert medical witnesses; multiple experts money allowing. (See Def. Ex. 2-30)
13. There was no plan to reevaluate the strategy for calling defense expert medical
witnesses at any time, including after the Government’s last expert testified. The Trial 3
record and contemporaneous emails indicate that despite the Government’s last medical
witness testifying on August 15, 2011 and the Government resting its case-in-chief on
August 17, 2011, the defense fully expected Dr. Mayer to testify in Trial 3 and actively
worked to coordinate scheduling his testimony up to and including August 20, 2011. (See
Trial 3, 8/19/11, p. 31-34 Tr.; Def. Ex. 29, 30)
14. On August 21, 2011, defense counsel made the decision to not call Dr. Mayer
as an expert witness due solely to schedule conflicts and the fact that the trial was coming
to a close. Defendant grudgingly accepted the outcome as there was nothing the defense
could do at this point and Defendant’s finances could not support procuring a paid defense
expert medical witness.

5

OeJ, Ck. A

15. Defense counsel was well-informed of Defendant’s depleted finances. Besid
having been declared in forma pauperis status for his p

es

revious appeal with trial Counsel as

co-chair, Defendant hadn’t made a payment to Kramon & Grah

am PC in almost two years

aad owed hundreds of thousands of dollars in bank payments. Prior to Trial 3. Defendant's
financial condition initiated discussi ons about using treating physicians as they would most
likely be less expensive. (Def. Ex. 11, 14) Defense counsel had
with Defendant just prior to Trial 3

an explicit conversation

commencing about his finances and his ability to

procure an expert medical witness. In fact, defense counsel was aware that Defendant's
father and mother-in-law were

assisting with the family finances and inquired about their

ability to provide funds for expert witnesses. Defendant informed trial
that his personal finances could not support

counsel at that point

paid expert witness and that his extended

family’s funds were strained at that point. With that update, Dr. Mayer was to be the only
defense expert medical witness.
16. Given Jeffrey Lewis’ (a government witness) testimony in Trials 1 and 3 that
future replacement services economic loss

was based on what the individual could do in

the past but no longer able to Ho in the future

- not what was paid for those past services -

and future earnings and medical economic losses

were not based on past earnings and

medical expenses, future economic loss was totally divorced from any claimed past
economic loss. Expert medical witness testimony was directly linked to futu

re economic

loss. As a result, medical expert testimony and athletic activity evidence

went directly to
future economic loss constituting $140,000 (93%)of the $151,034 of the economic award.
17. It is unlikely the jurors would have discounted medical and athletic activity
evidence in Trial 1, and pnorto a potential Trial 2, given this evidence was clearly relevant

6

Ex. \

to Defendant's noneconomic claim as well as future economic claims; and the remaining
hung counts at a follow-on trial would entail the same

economic and noneconomic claims.

18. Defense counsel never discussed Criminal Justice Act (CJA) funds for
obtaining the services of expert witnesses with Defendant at any time during this
lengthy legal proceeding. Defendant first became aware that CJA funds

entire,

were to be made

available to indigent defendant’s after reading a June 2014 issue of the Bloomberg BNA
Criminal Law Reporter (“Public Defender Must Fund Defense Costs Incurred b
y Indigents
Who Self-Represent”) (Def. Ex. 54) while incarcerated at FPC Schuylkill.
19. Appellate attorney, Steven Klepper, from the same law firm as Defendant’s trial
attorney, was intimately aware of the importance of medical and athletic activity evidence
and expert witnesses in Trial 3 having wrote both Coughlin I and Coughlin II appeals, the
motions in limine leading to Judge Lamberth’s Memorandum Opinion, numerous briefs
for Defendant’s trial attorney in preparation for Trial 3, and copied

on multiple emails

conveying the importance of expert medical witnesses but failed to even mention as a basis
for an appeal the failure to seek CJA funds knowing Defendant’s

indigent status,

Defendant’s trial attorney was co-chair during the Coughlin post-trial appeal. (See Def. Ex.
31-53)
20. I state these facts, to the best of my ability, to convey the events that transpired
in failing to call defense expert medical witnesses at Trial 3.
I declare under the penalty of perjury that the foregoing is true and correct to the
best of my recollection.

7

04. Ex. \

APPENDIX G

1

1,

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
X

1
2
3
4
5
6

UNITED STATES OF AMERICA,
v.

Criminal Case No. 09-334

CHARLES E. COUGHLIN,
Defendant
X

7
8

Washington, D.C.
Friday, August 19, 2011
2:00 P.M.

11

DAY 10 - P.M. SESSION
TRANSCRIPT OF JURY TRIAL
BEFORE THE HONORABLE ROYCE C. LAMBERTH
CHIEF UNITED STATES DISTRICT JUDGE
APPEARANCES:

12

For the Government:

9
10

13
14

Susan Beth Menzer, AUSA
U.S. ATTORNEY'S OFFICE
Community Prosecution
555 Fourth Street, NW
Washington, DC 20530
(202) 252-7975

15
16
17
18

For the Defendant: John A. Bourgeois, Esquire
Amy E. Askew, Esquire
KRAMON & GRAHAM, P.A.
One South Street, Suite 2600
Baltimore, MD 21202
(410) 752-6030

19
20
21
22
23
24
25

Court Reporter:

Lisa Walker Griffith, RPR
U.S. District Courthouse
Room 6507
Washington, D.C. 20001
(202) 354-3247

Proceedings recorded by mechanical stenography, transcript
produced by computer.

31

1

weekend.

2

(Jury Out)

3

THE COURT:

4

Sorry about that, counsel.

not look that great.

But she did

So I don't think we could continue.

5

You want to raise some other issues before I go?

6

MS. MENZER:

Yes, Your Honor.

7

positive response from Ms. Askew.

8

sort of indication that they--

9
10

I have not gotten a

But I think I have some

Let me give you a minute, maybe you all

THE COURT:

can talk and resolve this.

11

(There was a pause in the proceeding.)

12

MS. MENZER:

I only have one issue.

My first issue

13

is going to be that, if they were calling all those doctors,

14

it is cumulative.

15
16

We're not arguing causation.

THE COURT:

Let's do this off the record at the

bench first and then we'll put what you need on the record.

17

(A discussion was held off the record.)

18

MS. MENZER:

Your Honor, Dr. Mayer's testimony was

19

the subject of pretrial motions before the first trial and

20

the government did object to his testimony.

21

for a number of reasons.

22

back to the office during lunch time.

23

the docket that the Court can read.

24

Kennedy did limit his testimony.

25

a sport medicine doctor, but I believe as a trauma expert.

He was offered

I unfortunately did bring the file
There are motions in
I do believe that Judge

He was offered, one, not as

32
t

)■

1

And he runs, they can correct me if I'm wrong, he runs

2

emergency rooms in the greater area.

3

doctor for the NFL.

4

He also I believe is a

His testimony basically consisted of about people

5

who experienced trauma and how they react.

6

they go seek medical treatment, that kind of thing.

7

talked about athletes such as NFL players who play in pain.

8

I think a lot of what he testified to last time is not beyond

9

the understanding of a juror.

10

Whether or not
He also

And that it is not an expert,

per se.

11

The issues are no longer relevant in this case

12

because we1 re not disputing the fact that he was hurt.

13

not disputing the fact that he sought medical care.

14

had a condition.

15

testimony is relevant at all anymore to the issues that are

16

left in this case.

And he

And it doesn't seem to me that his

MS. ASKEW::

17

We' re

Your Honor, we're not calling Dr. Mayer

18

on the issue of whether or not Commander Couglin sustained an

19

injury.

20

Dr. Zukowski who testified.

21

in this trial.

22

the government is taking exception to Commander Couglin's

23

ability to continue to play sports but not do certain things

24

around the house.

25

Dr. Mayer has very similar qualifications as
I think he was the first witness

As I indicated to Ms. Menzer prior to trial,

One of the things that a physician is qualified to

33

1

testify about is what movements may or may not trigger

2

certain radicular symptoms.

3

layperson.

That is beyond the kin of a

We're not calling any other doctors.

Dr. Mayer is familiar with both the sport of

4

And can render opinions

5

lacrosse as well as basketball

6

regarding the diagnosis and the condition that Commander

7

Couglin has, based on his review of the medical records and

8

the physical movements that are related to each play.

9

that, I do think is beyond the kin.

And

So, the only person

I didn't know this motion was going to

10

we're going to call.

11

be made today.

12

Court is inclined to hear more argument--

So I have not really looked at it.

If the

13

THE COURT:

What limitation did Judge Kennedy place?

14

MS. ASKEW:

Judge Kennedy allowed him to testify.
So if

15

Again, I have not looked at this in quite some time.

16

I'm getting this wrong, Ms. Menzer may have looked at it.

17

sent her actually the ruling section, right?
MS. MENZER:

18

I

I think he was not allowed to talk

19

about his own personal play because there was some indication

20

that he and his sons played at Vail.

21

to talk about that he has physically seen people play at

22

Veil.

23

MS. ASKEW:

So he was not allowed

Right, he wasn't going to be a fact
He also has been

24

witness as to the Veil lacrosse issue.

25

physician to teams, much like Dr. Zukowski and Dr. Bojescul.

34
/

1

So they have knowledge that is beyond a lay person.

2

permitted to testify, not only to the issue of the trauma in

3

the first trial, but also as to the movements of the body and

4

how Commander Couglin's condition may or may not limit him.

5

That's classic physician testimony.
MS. MENZER:

6

He was

The second part of it, I don't have a
The only problem I do have,

7

problem with, Your Honor.

8

because it wasn't -- we're not going to ask him about this,

9

is the trauma issue is because we have not stated anything

10

about the fact that he waited 10 days.

It is no longer an

11 :

issue so I just want to clarify that we're not going to go

12

back and do the same thing that he did last time.

13

MS. ASKEW:

No, no, absolutely not.

14

THE COURT:

All right.

15

MR. BOURGEOIS:

16

Your Honor, may I beg the Court's

indulgence for a moment.

17

(There was a pause in the proceedings.)

18

MR. BOURGEOIS:

Your Honor, I would ask -- I've

19

asked Ms •: Menzer and she doesn't appear to be inclined.

I

20

would ask that the Court direct the government to provide the

21

defense With a copy of the OIG report and the e-mail that Ms.

22

Menzer

23

yesterday's proceedings which she read to the Court.

24

never seen them.

25

recall the last--

IG, that Ms. Menzer referenced at the end of

I don't know what they say.

I' ve

But as I

35
/

1

THE COURT:

2

MR. BOURGEOIS:

3

Mr. Sayers got going --

4
5
6

THE COURT:

What was it about?
About the investigation that

That's irrelevant, I don't want to get

into that.
MR. BOURGEOIS:

Well Your Honor, first of all, it
You did sustain my objection.

7

was an inappropriate question.

8

I think it left a stink in the room.

9

heard Ms. Menzer correctly, the last communication she got

10

was that the investigation was done.
That can be in your post trial motion.

11

THE COURT:

12

MR. BOURGEOIS:

13

THE COURT:

14

(Whereupon, at 3:30

15
16
17
18
19
20
21
22
23
24
25

And especially, if I

Thank you, Your Honor.

Have a good weekend.
P.M., the trial recessed.)

36

C ONTEN T S

1

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

WITNESS

DIRECT

(Defendant)
THOMAS MOORE
By Mr. Bourgeois

3

CROSS

REDIRECT

RECROSS

CERTIFICATE OF REPORTER
I, Lisa Walker Griffith, certify that the foregoing
is a correct transcript from the record of proceedings in the
above-entitled matter.

Y- 70- /Z
Lisa Walker Griffith..,' RPR

Date

8/30/2017

append iSPUP Connect

Re: USA v. Coughlin - Various Witnesses
cecoughlih@comcast.net
To Amy E. Askew Copy John A. Bourgeois

*

8/17/201110:58 PM Q

Amy,

LuhSrBFUrWayy'Mondaf9 '***

** ^ ^ ^ Mayer °n M°"day' a"d T°m Moore for

We also have Dan Seifert, Jace Stirling (focused solely on character and Memmel - NO
sports), and the others Misted below. Dan was pretty flexible when I spoke with him on Monday.
John said that Jon Prusmack was still willing to testify. If he can do Monday or Tuesday I
will need
to make preps to get him here. I need to know from John what Prusmack's desire
was
before
I can
take action.
Please let me know so that we can plan accordingly...as well as them. Tx.

Best Regards,
Chuck
Charles E. Coughlin
(c) 443-370-4307
cecouahlin@nomnast npf

From: Amv E. Askew
To: cecouahlin@cQmr.ast npt
Sent: Wednesday, August 17, 2011 9:42:29 PM
Subject: Re: USA v. Coughlin - Various Witnesses
Mark stevens
Walter laake
Chuck Sr.
Norwig (if possible)
Ryan
Courtney
Amy E. Askew
Kramon & Graham, P.A.
(410) 752-6030
This email was sent from a Blackberry device.
***★

04. Ek. 23

This communication is from a law firm and may contain confidential or privileged information. Unauthorized retention,
https://connect.xfinity.com/appsuite/#!!&app=io.ox/mail/detail&folder=default0//xa%7Cn0Atuotoi%7B%23Etqevz!Prjvkmiih%225(Wwxl%20Psofvgv2FW...

1/3

8/30/2017

XFINITY Connect

disclosure, or

From: cecouqhlinOcomcaqt'.npr <cecouQhlin@comcast.net'>
To: Amy E. Askew
Cc: John A. Bourgeois; markdstevens34@qmail.rom <markdstewra34@nmaii
Sent: Wed Aug 17 20:28:13 2011
"
Subject: Re: USA v. Coughlin - Various Witnesses

Amy,
tomoraroLhaVe * Strai9M in my mhld' please let me know ,he lineuP (Including the order) for
Also
andthe last
Monday (8/22) were fine with his schedule. He can also do Tuesday (if God forbid I arr/not
thMiSr!and,nh 3t that P°mt) but is not available after that date. Tom indicated that you should call

f™' *!® other officer that was awarded the PH was in his area/division. Tom saw him with a cut
Mghjr^
locKerfcX^^^^

<° -«

having

‘° ^'° "y

engineer and a sharp individual. He saw me in 2004 lay down on the side of the court due to mv
other than being a bit slower (due to age as he thinks we were all slower).
^rld^numhero^fh b®eh"

the N8°sPaces over the past year. The interior was just remodeled

2 of 4 should be relatively short witnesses.
Best Regards,
Chuck
Charles E. Coughlin
(c) 443-370-4307
cecouahlin@comcast npt

Cei El*. ^

hdps://conned.xfiiiity.com/appsuite/#MSapp=io.ox/mail/detail&folder=defaull0//xa%7Cn0Atuatoi%7B%23EIqevz!Prjvkmiih%225(W.vxl%20Psofv9P2FW...

2/3

8/30/2017

XFINITY Connect

/

From: Amv E. Askew
To: markdstevens34@amail.com
Cc: John A. Bourgeois
Sent: Wednesday, August 17, 2011 6:42:06 AM
Subject: USA v. Coughlin
Mark:
I will contact you this evening and give you the final word on whether or not we need you to testify tomorrow. The
government still has not completed its case, so I don't have a good idea as to when we will be able to start our case.
The address to the federal courthouse in D.C. is 333 Constitution Avenue, NW. We are before Chief Judge Lamberth
and his courtroom is on the 2nd floor (if you come off the elevators to the hallway, you will turn left).
I will give you a call around 9pm tonight.
Thank you.
Amy E. Askew
Kramon & Graham, P.A.
One South Street, Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512
Fax: 410-361-8219
Email: aaskew@kg-law.com
*********************$
This communication is from a law firm and may contain confidential or privileged information. Unauthorized retention, disclosure,
or use of this information is prohibited and may be unlawiul under 18 U.S.C. §§ 2510-2521. Accordingly, if this email has been
sent to you in error, please contact the sender by reply email or by phone at 410-752-6030.

https://connect.xfinity.com/appsuite/#!!&app=io.ox/mail/detail&folder=default0//xa%7Cn0Atuotoi%7B%23Etqevz!Prjvkmiih%225(Wwxl%20Psofvgv2FW...

3/3

6/4/2017

XFINITY Connect

Re: Medical Records for Coughlin
cecoughlin@comcast.net
To Amy E. Askew Copy John A. Bourgeois

8/20/2011 8:53 AM

R

Amy,

«.SfSSKSSSS IS
Best Regards,
Chuck
Charles E. Coughlin
(c) 443-370-4307
cecouahlin@comnast npt

From: Amv E. Askew
To: John A. Bourgeois cecouahlin@comnast net
Sent: Saturday, August 20, 2011 6:45:11 AM
Subject: FW: Medical Records for Coughlin
We need to make a decision about this today.
Amy E. Askew
Kramon & Graham, P.A.
One South Street, Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512
Fax: 410-361-8219
Email: aaskew@kg-law.com
• ******** a**********
Th.s communication is from a law firni and may contain confidential or privileged infonnation. Unauthorized retention
isclosure, or use ofthis infonnation is prohibited and may be unlawful under 18 U.S.C. §§ 2510-2521.
Accordingly, ifthis
email has been sent to you in error, please contact the sender by reply email or by phone at 410-752-6030.
From: Mayer, Thom rmailto:tmaver(3)best-pracfires.com]
Sent: Friday, August 19, 2011 5:40 PM
To: Amy E. Askew
Subject: RE: Medical Records for Coughlin
Possibly
Tuesday is much better

H*. 30

https://connect.xfi ni ty.com/appsui te/p&app=io.ox/mail/detail&folder=defaultO//yiyp8J%7Dtpzsiz)Drrms%7C)Y%7Biwqqihn!3)Jzt)Yrplzgu8EUS(2(J0/o7D%7Do...

1/5

6/4/2017

;

,l

XFINITY Connect

From! Amy E- Askew rmailto:aaskfiw@kQ-law.rnmi
Sent: Thursday, August 18, 2011 5:54 PM
To: Mayer, Thom
Subject: Re; Medical Records for Coughlin
Amy£ Askew31 ^ Can WOrk °Ut WS may TOt 90that lon9- Any way at all that you

can go on Monday?

Kramon & Graham, P.A.

(410)752-6030

***

*********
This email was sent from a Blackberry device.
********************* *********** ********** * * * ***********
“olosT’or Srf ihi!0"1
, 3 ^ fi"ri ^ maV C°n,ai" COT,ide",ial or P-t-ileged infection. Unauthonzed retention
thiL u
f th mformatlon 15 Prohibited and may be unlawful under 18 U.S.C. §§ 2510-2521 Accordingly if
thte email has been sent to you in enor, please contact the sender by reply email or by ptone at

From: Mayer, Thom ctmavertabest-nrartires rnm-c
To: Amy E. Askew
Sent: Thu Aug 18 16:50:02 2011
Subject: RE: Medical Records for Coughlin
Amy,
Not sure if you got my email, but the 24th is now best for me
Would that possibly work?
Sorry to be a pain, but my schedule is in flux
Best,
Doc
From: Amy E. Askew rmailto:aaskew@[<n-law mm]
Sent: Wednesday, August 17, 2011 11:09 PM
TO: Mayer, Thom; Mayer, Thom
Cc: John A. Bourgeois
Subject: RE: Medical Records for Coughlin
Dr. Mayer:
Tn WTm C°nfirmuthat youare stiil able to testify on Monday August 22nd, should we need to call you. if you
are
still available, I was hoping we could meet or chat on Sunday. Please let me know.
I look forward to hearing from you. Thanks.

Amy E. Askew
Kramon & Graham, P.A.
One South Street. Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512

TM!

-30

https.//connect.xfinity.com/appsuite/#!!&app=io.ox/mail/detail&folder=defaultO//yiyp8J%7Dtpzsiz)D
rrms%7C)Y%7Biwqqihn!3)_tzt)Yrplzgu8EUS(2(J%7D%7Do...

2/5

6/4/2017 ::

XFINITY Connect

Fax: 410-361-8219
Email: aaskew@kiT-law.com
******************.!.***.
^slTemriCati mS frT alaWfinT, andmay C°ntam CGnfidential

Privileged infonnation. Unauthorized retention

email has h
Informatlon ,s Prohibited arid may be unlawful under 18 U.S.C. §§ 2510-2521. Accordingly ifthis
has been sent to you m error, please contact the sender by reply email or by phone at 410-752-6030.
From: Amy E. Askew
Sent: Thursday, August 11, 2011 5:38 PM
To: 'Mayer, Thom’
Cc: John A. Bourgeois
Subject: RE: Medical Records for Coughlin

~~

~

Dr. Mayer:
If you are called to testify, we will not need you until August 22nd. If you have any openings at the end of next week
(like the 18^ or 19^), let me know.
Also, you only need to review medical records through May 13, 2004. There was a possibility that the government
was going to expand their case to present day, but that isn't happening.
Are you around this weekend to chat?

Amy E, Askew
Kramon & Graham, P.A.
One South Street, Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512
Fax: 410-361-8219
Email: aaskew@kg-law.com
******* ***************
This communication is from a law finn and may contain confidential orprivileged infonnation. Unauthori
zed retention,
disclosure, or use of this information is prohibited and may be unlawful under 18 U.S.C. §§ 2510-2521 /,
Accordingly, ifthis
email has been sent to you in error, please contact the sender by reply email or by phone at 410-752-6030
From: Mayer, Thom fmailtoitmaveriabest-nrartirps mm]
Sent: Tuesday, August 09, 2011 3:58 PM
To: Amy E. Askew
Subject: RE: Medical Records for Coughlin
Amy
Not sure how long the trial is expected to last, but I may be able to do August 22 or 26 instead of the 15th'
Doc
From: Amy E, Askew rmailto:aaskew(a)kn-ln\A/ mm]
Sent: Saturday, August 06, 2011 12:47 PM
To: Thom Mayer
Cc: John A. Bourgeois
Subject: RE: Medical Records for Coughlin

-SO
https://connect.xfinity.com/appsuite/#!!&app=io.ox/mail/detail&folder=defaultO//yiyp8J%7Dtpzsiz)Drrms%7C)Y%7Biwqqihn!3)
_tzt)Yrplzgu8EUS(2(J%7D%7Do...

3/5

6/4/2017

:

XFINITY Connect

Let's shoot for August 15th. Perhaps we can plan to meet or chat on August 13th or 14th to prepare for your

If your schedule opens up more the week of August 15th, please let me know
Thank you.
Amy E. Askew
Kramon & Graham, P.A.
One South Street, Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512
Fax: 410-361-8219
Email: aaskew@kg-law r.ni-n
This communication is from a law finnand may contain confidential or privileged information. Unauthorized retention
isclosure, or use ofthis information is prohibited and may be unlawful under 18 U.S.C. §§ 2510-2521. Accordingly ifthis
email has been sent to you in error, please contact the sender by reply email or by phone at 410-752-6030.
From: Thom Mayer fmailto:tmaver@best-Dractices.coml
Sent: Saturday, August 06, 2011 12:31 PM
To: Amy E. Askew
Subject: RE: Medical Records for Coughlin
Amy
My schedule is tight but I can probably do August 11-12 or August 15. Not sure about the next week
If the records haven't already been sent, please send to 2728 Teton Pines Drive, Wilson, Wyoming

83014.

If they have been sent, my office will forward
Best,
Doc
From: Amy E. Askew fmailto:aaskew@ka-law.rnm]
Sent: Friday, August 05, 2011 2:58 PM
To: Thom Mayer; Thom Mayer
Subject: Medical Records for Coughlin
Dr. Mayer:
1 am going to send to your office a binder of Commander Coughlin's medical records from 1998 to 2011.

They are in
chronological order. Please let me know when you are able to testify during the weeks of August 15th and August
22nd.
I am leaving for D.C. this weekend (trial starts on August 8th). If you need to reach me, please send me an email or
call me on my cell phone (410-303-4532).
https://connect.xfinity.com/appsuite/#!!&app=io.px/mail/detail&folder=defaultO//yiyp8J%7Dtpzsiz)Drrms%7C)Y%7Biwqqihn!3)_tzt)Yrp|Zgu8EUS(2(J%7D%7Do...
4/5

6/4/2017

XFINITY Connect:

I look forward to hearing from you.
Amy E. Askew
Kramon & Graham. P.A.
One South Street, Suite 2600
Baltimore, Maryland 21202-3201
Phone: 410-319-0512
Fax: 410-361-8219
Email: aaskew@kg-law.com
*************:|:***i|;}f:**£

This communication is from a law firm and may contain confidential or privileged information. Unauthorized retention,
disclosure, or use ofthis information is prohibited and may be unlawful under 18 U.S.C. §§ 2510-2521. Accordingly, ifthis
email has been sent to you in error, please contact the sender by reply email or by phone at 410-752-6030.

53.

https://connect.xfi nity.com/appsuite/#!!&app=io.ox/mail/detail&fplder=defeult0//yiyp8J%7Dtpzsiz)Drrms%7C)Y%7Biwqqihn!3)_tzt)Yrplzgu8EUS(2(J%7D%7Do.. .

5/5

APPENDIX I

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
)

UNITED STATES OF AMERICA
v.
CHARLES E. COUGHLIN,
Defendant

)
)
)
)
)
)
)

Crim. No. CR 08-0034 (RCL)

3
DECLARATION OF THOM A. MAYER. M.D.
1. My name is Thom A. Mayer. I am over 18 years of age, have personal knowledge
of the contents hereof, and am otherwise competent to testify.
2.1 currently reside at 2728 Teton Pines Drive, Wilson, Wyoming, 83014.
3. I earned my undergraduate degree from Hanover College in 1973 and my
Medical Doctor degree from Duke University School of Medicine in 1977. I am board
certified in emergency medicine, pediatric emergency medicine and healthcare leadership,
and practice sports medicine as well. I am licensed to practice medicine in multiple states
including Maryland and Virginia, and the District of Col umbia. I practice medicine at Inova
Fairfax Medical Campus of the Inova Health System.
4. Kramon and Graham, P.A. retained my services pro bono in February 2009 to
provide expert and fact testimony on behalf of Charles E. Coughlin.
5. At Mi-. Coughlin’s trial in March 20091 was designated a medical expert in sports
medicine, emergency and trauma medicine, and tactical EMS. I provided testimony based
on Mr. Coughlin’s medical records and doctors’ diagnosis that he incurred a significant
injury as a result of the events of 9/11 exacerbating his preexisting cervical medical

1

condition. I testified that Mr. Coughlin’s symptoms were consistent with the medical
findings that 9/11 caused left-sided radiculopathy and increased symptoms; concurred that
treatment options included surgery based on the severity of symptoms; pain tolerance
varies between people and that endurance athletes tend to have a higher pain threshold;
athletes can modify activities and how they participate in activities to lessen symptoms;
symptoms can vary and present in different ways; Mr. Coughlin’s March 2000 motor
vehicle accident was minor and not relevant to his current cervical condition; his athletic
activities and performance post-9/11 compared to his pre-9/11 performance indicate he
sustained a significant injury on 9/11; Mr. Coughlin’s participation in athletic activities
post-9/11 didn’t change my opinion given changes in quality of play, level of play,
frequency of play and modifications to play are the relevant factors; athletes go through a
transition in understanding and accepting an injury’s impact on performance and typically
slowly “phase out” athletic participation; analyzing marathon performance prior to and
after cervical injuries in 2000 and 9/11 demonstrates the 9/11 event was the most
significant injury and was the cause of continuing significant symptoms; Mr. Coughlin’s
hip and shoulder injuries were “non-factors” and weren’t responsible for his decreased
athletic performance post-9/11; and that the “standard” medical record format as compared
to the sports medicine medical record format is deficient in capturing the information
necessary to gage the severity of an injury and its symptoms.
6. In June 2009 I was again retained pro bono by Kramon and Graham, P.A. to
provide expert and fact testimony on behalf of Mr. Coughlin in a retrial. My testimony in
this trial was to be consistent with my testimony in March 2009.1 was informed in July
2009 the trial was stayed and that my services were no longer required.

2

7. Kramon and Graham, P.A. retained my services pro bono in July 2011 to provide
expert and fact testimony on behalf of Mr. Coughlin in a third trial. My testimony in this
trial was to be consistent with my testimony in March 2009.
8. Throughout August 2011 Mi-. Coughlin’s trial attorney and I made multiple
attempts to coordinate my appearance at trial with my personal schedule. In mid-August it
was decided that I would testily during the week of August 22nd.
9. Due to last-minute changes with my schedule, on Friday, August 19th I asked Mr.
Coughlin’s trial attorney to reschedule my testimony that was scheduled for Monday,
August 22nd to later that week.
10. Ultimately, although scheduled and fully expecting to testify at Mr. Coughlin’s
trial, I did not provide testimony due to ongoing scheduling conflicts.
11. I state these facts, to the best of my ability, to convey that I anticipated and was
fully prepared to testify on behalf of Mr. Coughlin in his third trial and that ultimately, I
did not testify due to last-minute conflicts between my personal schedule and the trial
calendar.
I declare under the penalty of perjury that the foregoing is true and correct to the
best of my recollection.

Giffi

Thom A. Mayer, M.D.

!

3

